  DOE,: 1325.8
 ./ (8-89)
iEFG (07-90)

 United States Government                                                        Department of Energy


 memorandum
     DATE:        October 18, 2006                                           Audit Report Number: OAS-L-07-02
REPLY TO
 ATTN OF:         IG-32 (A06LL041)

SUBJECT:          Audit Report on "Emergency Response Training at Lawrence Livermore National
                 Laboratory"

        TO:      Manager, Livermore Site Office, National Nuclear Security Administration

                 INTRODUCTION AND OBJECTIVE

                 The Secretary of Energy (Secretary) identified the safety of employees and the communities
                 surrounding the Department of Energy's (Department) facilities as one of his highest priorities.
                 Consistent with this priority, the National Nuclear Security Administration (NNSA) tasked Lawrence
                 Livermore National Laboratory (Laboratory) to ensure that its firefighters were properly trained to
                 protect its employees and surrounding communities from exposure to the hazardous materials used at
                 the Laboratory. The Laboratory operates two fire stations to respond to fires and hazardous material
                 incidents. To obtain additional support, the Laboratory entered into mutual aid agreements with
                 firefighting entities from local cities, Alameda County, regional special districts, the State of
                 California, and the U.S. Navy.

                 Because of the Secretary's emphasis on employee and community safety, we initiated this audit
                 to determine whether the Laboratory had trained its firefighters to respond to fires and
                 hazardous material incidents and afforded the mutual aid firefighting agencies the opportunity
                 to train with its firefighters.

                 CONCLUSIONS AND OBSERVATIONS

                 We determined that the Laboratory's firefighters had been trained to respond to fires and hazardous
                 material incidents. Further, the Laboratory had afforded the mutual aid firefighting agencies the
                 opportunity to train with its firefighters and become familiar with the Laboratory's facilities.
                 However, based on our review of the Laboratory's training records, we determined that not all of the
                 Laboratory's firefighters were completing their certifications, proficiency training courses and field
                 exercises within the required training intervals. Of the 13 certifications, proficiency training courses,
                 and field exercises we tested, some firefighters did not complete the training for four of these
                 requirements within prescribed frequencies. For example:

                     *   The Laboratory's firefighters are required to take Radiological Worker Training on a biennial
                         basis. However, we found that 36 of the 42 firefighters (86 percent) were late in completing
                         this training by one to three months. The Laboratory subsequently scheduled and conducted
                         this training course in September 2006 so these firefighters could meet the biennial
                         requirement.
    *   Firefighters are also required to take Firefighter Survival Training on an annual basis.
        However, we found that 5 of the 42 firefighters (12 percent) were late in completing this
        training by four to seven months. The Laboratory subsequently scheduled and conducted this
        training course in October 2006 so these firefighters could meet the requirement.

Many of the Laboratory's firefighters completed their training late because management did not
monitor and ensure its firefighters were completing required certifications, proficiency training
courses, and field exercises on a timely basis. The Laboratory requires the fire captains to monitor
and ensure that their assigned firefighters are completing their required training on time. However,
the Laboratory's training captain acknowledged that fire captains were not adequately monitoring the
status of their firefighters' training.

 Laboratory policies also require (1) the fire department to ensure that firefighter training records are
 updated within 10 working days of course completion; and, (2) that course instrictors turn in
 appropriate documentation to the training captain so the training records can be updated. Firefighter
training records are maintained in an electronic database, the Livermore Training Records and
Information Network (LTRAIN). Management uses LTRAIN to track and manage firefighter
training records to identify when required certifications, profidiency training courses, and field
exercises are due. However, our review showed that the fire department did not ensure that the
LTRAIN records were always updated within the 10 working days after the firefighters completed
their training. For example, two training courses, Meteorological Conditions and Forcible Entry,
were conducted in May 2006 but were not posted in LTRAIN until July 2006. This happened
because a course instructor, who was a fire captain, did not turn in the appropriate documents to the
training captain for over a month after the completion of the training. Further the training captain did
not follow through to ensure the documents were submitted. As a result, the database could not be
relied upon to accurately alert management when firefighters were required to renew their training
requirements.

SUGGESTED ACTIONS

To better ensure that the Laboratory's firefighters are able to adequately respond to fires and
hazardous material incidents, we suggest that the Manager, Livermore Site Office, direct the
Laboratory to ensure that firefighters':

    *   Certifications, required proficiency training, and field exercises are scheduled and completed
        within established time frequencies; and,

    * Training records are promptly updated.

SCOPE AND METHODOLOGY

The audit was performed from April 2006 to October 2006 at the Lawrence Livermore National
Laboratory and the Livermore Site Office in Livermore, CA; the Alameda County Fire
Department in San Leandro, CA; the Livermore-Pleasanton Fire Department in Pleasanton, CA;
and, the City of Tracy Fire Department in Tracy, CA.




                                                2
To accomplish the audit objective, we: (1) identified and reviewed appropriate Department and
NNSA laws and regulations and Laboratory policies and procedures with respect to firefighter
certification, training, and field exercises; (2) interviewed NNSA, Laboratory, and mutual aid
officials; and, (3) tested a judgmental sample of 13 out of 152 firefighter training requirements
for certifications, training courses and field exercises for completion.

We conducted the audit according to generally accepted Government auditing standards for
performance audits and included tests of controls and compliance with laws and regulations to
the extent necessary to satisfy the audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We found we could not rely on the computer-processed data; therefore, we conducted
a physical review of firefighter training records, such as signed certificates, attendance rosters
and class syllabuses, to accomplish our audit objective. Finally, we reviewed the
implementation of the Government Performance Results Act of 1993 and determined that no
performance measures exist that were directly related to firefighter training.

Since no recommendations are being made in this letter report a formal response is not
required. We appreciate the cooperation of your staff during tlhe audit.



                                             ALL        td.Sd-
                                                       . Collard,
                                                          S1eorge,Acting Director
                                             ational Nuclear Security Administration
                                              Audits Division
                                            Office of Inspector General

Attachment

cc: Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, CF-1.2




                                               3
